No.

IN THE

SUPREME COURT OF THE UNITED STATES

LOGAN BROOKS DRINKARD,
Petitioner,
v.
MARK S. INCH,
SECRETARY, FLORIDA DEPARTMENT OF
CORRECTIONS,
Respondent.

On Petition for Writ of Certiorari
to the Eleventh Circuit Court of Appeals
_________________________________________________
APPENDIX TO
PETITION FOR WRIT OF CERTIORARI
_________________________________________________
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER
A-1

TABLE OF CONTENTS
Document
1.

Page

February 1, 2021, opinion of the
United States Eleventh
Circuit Court of Appeals . . . . . . . . A-3

2.

Information. . . . . . . . . . . . . . . . . . . . . A-18

3.

Excerpt from the transcript of
the March 20, 2012,
pretrial hearing . . . . . . . . . . . . . A-23

4.

Verdict . . . . . . . . . . . . . . . . . . . . . . . . A-25

A-2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-12543 Non-Argument Calendar
________________________
D.C. Docket No. 3:17-cv-00338-LC-MJF

LOGAN DRINKARD,
Petitioner - Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
Respondent - Appellee.
________________________
Appeal from the United States District Court for the
Northern District of Florida
________________________
(February 1, 2021)
A-3

Before MARTIN, BRANCH, and EDMONDSON,
Circuit Judges.

PER CURIAM:
Logan

Drinkard,

a

Florida

probationer

proceeding with counsel, appeals the district court’s
denial of his amended 28 U.S.C. § 2254 petition for
writ of habeas corpus. Drinkard seeks to vacate his
2013

Florida

conviction

for

manslaughter.

No

reversible error has been shown; we affirm.
Drinkard’s conviction stems from a collision
between Drinkard’s car and another vehicle, which
resulted in the death of a passenger in that other
vehicle. The state charged Drinkard with (1) vehicular
homicide under Fla. Stat. § 782.071(1)(a) (Count 1); (2)
manslaughter under Fla. Stat. § 782.07 (Count 2); and
(3) racing on a highway under Fla Stat. § 316.191(2)(a)
(Count 3). At a pre-trial hearing, the state clarified
A-4

that Count 1 and Count 2 were based on the same set
of facts.
Following a trial, the jury found Drinkard (1)
guilty of reckless driving -- a lesser-included offense of
vehicular homicide, (2) guilty of manslaughter, and (3)
not guilty of racing on a highway.
Drinkard moved to arrest the judgment, seeking
to vacate the jury’s verdict for manslaughter. Drinkard
argued that -- because the jury acquitted him of
vehicular homicide in Count 1 and because vehicular
homicide is a lesser-included offense of manslaughter1
-- constitutional double jeopardy principles prohibited
him

from

being

convicted

and

sentenced

for

1 See Burford v. State, 8 So. 3d 478, 480 (Fla. Dist. Ct.
App. 2009) (“Vehicular homicide is a lesser included
offense of manslaughter by culpable negligence.”).
A-5

manslaughter.2 Drinkard focused on the order in which
the offenses were charged and, thus, the order in which
the verdict was announced. In other words, Drinkard
asserted that jeopardy attached as soon as the jury
announced its verdict for Count 1 and thus barred
Drinkard from being convicted for manslaughter in
Count 2. Following a hearing on the motion, the state
court denied relief.
At sentencing, the parties agreed -- given
Drinkard’s conviction for manslaughter -- that double
jeopardy concerns barred Drinkard from also being
convicted or sentenced on the reckless driving offense.
The state trial court thus adjudicated Drinkard guilty
only of manslaughter and sentenced Drinkard to 10
years’ imprisonment.

2 Drinkard also challenged the jury’s verdict as legally
inconsistent but later abandoned that claim.
A-6

Drinkard appealed his conviction and sentence
to the state appellate court. In pertinent part,
Drinkard challenged the trial court’s denial of his
motion for arrest of judgment and reasserted his
double jeopardy argument. Following oral argument,
the

state

appellate

court

affirmed

Drinkard’s

manslaughter conviction without discussion.3
The Florida Supreme Court denied rehearing
and certification without discussion. The United States
Supreme Court later denied certiorari.
Drinkard timely filed the counseled section 2254
federal habeas petition at issue in this appeal.
Drinkard

again

challenged

his

manslaughter

3 The state appellate court also vacated Drinkard’s
sentence and remanded for resentencing for reasons
unrelated to this appeal. Drinkard was later
resentenced to 10 years’ probation with a special
condition that he be confined to the county jail for the
first year of probation.
A-7

conviction as unlawful on double-jeopardy grounds in
the light of his acquittal on the lesser-included offense
of vehicular homicide. The district court denied
Drinkard’s motion on the merits and denied Drinkard
a certificate of appealability (“COA”).
A single judge of this Court granted a COA on
this issue: “Whether the Florida courts unreasonably
applied clearly established federal law by affirming
Mr. Drinkard’s convictions of both manslaughter and
reckless driving, where there was one death, in light of
double jeopardy principles.”
As an initial matter, we note that the issue as
framed in the COA mischaracterizes the nature of
Drinkard’s double jeopardy claim. Accordingly -- in the
light of the record, including the pertinent pleadings
and decisions of the state courts and the district court
-- we amend the COA to read this way: “Whether the
A-8

Florida courts unreasonably applied clearly established
federal law in denying Mr. Drinkard’s claim that
constitutional double jeopardy principles prohibited
him

from

being

convicted

or

sentenced

for

manslaughter in the light of the jury’s acquittal -- in
the same criminal prosecution -- on the lesser-included
offense of vehicular homicide.” For background, see
Murray v. United States, 145 F.3d 1249, 1251 (11th
Cir. 1998) (“Although we will not decide any issue not
specified in the COA, we will construe the issue
specification in light of the pleadings and other parts
of the record.”); 11th Cir. R. 27-1(g) (noting the merits
panel may alter, amend, or vacate a motions ruling
entered by a single judge or panel). Because both
parties have briefed the issue reflected in the amended
COA, we now address the merits.
When reviewing the district court’s denial of a
A-9

section 2254 habeas petition, “we review questions of
law and mixed questions of law and fact de novo, and
findings of fact for clear error.” See Rambaran v. Sec’y,
Dep’t of Corr., 821 F.3d 1325, 1330 (11th Cir. 2016).
When the merits of a section 2254 habeas claim
have been already adjudicated in state court, our
review is highly deferential to the state court. See
Crowe v. Hall, 490 F.3d 840, 844 (11th Cir. 2007). To
obtain habeas relief, a petitioner must show that the
state court’s ruling “was contrary to, or involved an
unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of
the United States; or . . . was based on an
unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.” See
28 U.S.C. 2254(d); Crowe, 490 F.3d at 844.
A state court decision is “contrary to” established
A-10

Supreme Court precedent (1) “if the state court arrives
at a conclusion opposite to that reached by [the
Supreme] Court on a question of law”; or (2) “if the
state court decides a case differently than [the
Supreme]

Court

has

on

a

set

of

materially

indistinguishable facts.” Williams v. Taylor, 529 U.S.
362, 412-13 (2000). A state court’s decision constitutes
an unreasonable application of Supreme Court
precedent “if the state court identifies the correct
governing legal principle from [the Supreme] Court’s
decisions but unreasonably applies that principle to the
facts of the prisoner’s case.” Id. at 413.
Where -- as here -- the state court’s decision
offers no explanation, “a habeas court must determine
what arguments or theories supported or . . . could
have supported, the state court’s decision; and then it
must ask whether it is possible fairminded jurists
A-11

could disagree that those arguments or theories are
inconsistent with the holding in a prior decision of [the
Supreme] Court.” See Harrington v. Richter, 562 U.S.
86, 102 (2011).
The Double Jeopardy Clause provides that no
person shall “be subject for the same offence to be twice
put in jeopardy of life or limb.” U.S. Const. amend. V.
The Double Jeopardy Clause offers three basic
protections: (1) “against a second prosecution for the
same offense after acquittal”, (2) “against a second
prosecution for the same offense after conviction”, and
(3) “against multiple punishments for the same
offense.” Brown v. Ohio, 432 U.S. 161, 165 (1977).
Drinkard’s double-jeopardy claim implicates only the
first of these three protections.
A

greater

and

a

lesser-included

offense

constitute the “same offense” for purposes of double
A-12

jeopardy. Id. at 168-69. Thus, the Supreme Court has
determined that “the Double Jeopardy Clause prohibits
prosecution of a defendant for a greater offense when
he has already been tried and acquitted or convicted on
the lesser included offense.” See Ohio v. Johnson, 467
U.S. 493, 501 (1984) (citing Brown).
Drinkard argues that the state court’s denial of
his double-jeopardy claim is contrary to and an
unreasonable application of the Supreme Court’s
decisions in Brown and Johnson. We disagree. As
observed by the district court, Drinkard’s claim raises
essentially the same double-jeopardy argument
rejected by the Supreme Court in Johnson.
In Johnson, the Supreme Court addressed the
application of the Double Jeopardy Clause in the
context of a multicount indictment charging the
defendant with murder, involuntary manslaughter,
A-13

aggravated robbery, and grand theft. 467 U.S. at 495.
The defendant pleaded guilty to the lesser-included
offenses of involuntary manslaughter and grand theft
and pleaded not guilty to the greater offenses of
murder and aggravated robbery. Id. at 496. The trial
court (over the state’s objection) accepted the
defendant’s guilty pleas and sentenced the defendant
to a term of imprisonment for those offenses. Id. The
trial court then granted the defendant’s motion to
dismiss the remaining counts on double-jeopardy
grounds. Id.
The Supreme Court reversed. Id. at 502. In
pertinent part, the Supreme Court rejected the
argument that the defendant’s guilty pleas on the two
lesser-included offenses barred the state’s continued
prosecution on the two greater offenses. 467 U.S. at
500-01. The Supreme Court explained its ruling this
A-14

way:
The answer to this contention seems
obvious to us. Respondent was indicted on
four related charges growing out of a
murder and robbery. The grand jury
returned a single indictment, and all four
charges were embraced within a single
prosecution. Respondent’s argument is
apparently based on the assumption that
trial proceedings, like amoebae, are
capable of being infinitely subdivided, so
that a determination of guilt and
punishment on one count of a multicount
indictment immediately raises a double
jeopardy bar to continued prosecution on
any remaining counts that are greater or
lesser included offenses of the charge just
A-15

concluded. We have never held that, and
decline to hold it now.
Id. at 501.
Like the defendant in Johnson, Drinkard was
charged in a single multicount indictment and was
subjected to a single prosecution. Nevertheless -- like
the defendant in Johnson -- Drinkard sought to
subdivide his prosecution so that an acquittal on a
lesser-included offense would operate as an immediate
double jeopardy bar to his conviction on the greater
offense. Given the Supreme Court’s rejection of a
substantially similar argument in Johnson, Drinkard
cannot show that the state court’s denial of Drinkard’s
double-jeopardy claim was either contrary to, or an
unreasonable application of, clearly established
Supreme Court precedent.
We affirm the district court’s denial of
A-16

Drinkard’s 28 U.S.C. § 2254 petition.
AFFIRMED.

A-17

Clerk Number 5711CF001806A-B.
Arrest Date12/30/2011

Agency # 11049980 FHP

Race: W Sex: M DOB: 09/13/1990 SS#:[redacted]
1)

VEHICULAR HOMICIDE

2)

MANSLAUGHTER

3)

RACING ON HIGHWAY
IN THE NAME AND BY THE AUTHORITY OF
THE STATE OF FLORIDA
IN THE CIRCUIT COURT OF SANTA ROSA
COUNTY, FLORIDA

STATE OF FLORIDA
vs
LOGAN BROOKS DRINKARD,
Defendant
WILLIAM EDDINS, STATE ATTORNEY FOR
THE FIRST JUDICIAL CIRCUIT OF FLORIDA,
PROSECUTING FOR THE FIRST CIRCUIT OF
A-18

FLORIDA, CHARGES THAT LOGAN BROOKS
DRINKARD, on or about November 26,2011, at and in
Santa Rosa County, Florida, did unlawfully kill a
human being, to-wit: Germaine Bindi by his operation
of a motor vehicle, to-wit: Ford Mustang, in a reckless
manner likely to cause the death of, or great bodily
harm to, another, in violation of Section 782.071(1)(a),
Florida Statutes. (F2-L7)

COUNT 2: AND YOUR INFORMANT AFORESAID,
PROSECUTING AS AFORESAID, ON HIS OATH
AFORESAID, FURTHER INFORMATION MAKES
THAT LOGAN BROOKS DRINKARD, on or about
November 26, 2011, at and in Santa Rosa County,
Florida, did, by his act, procurement or culpable
negligence, kill Germaine Bindi, a human being, by
driving at a high rate of speed and/or racing another
A-19

vehicle and/or weaving in and out of traffic and/or
driving recklessly, in violation of Section 782.07,
Florida Statutes. (F2-L7)

COUNT 3: AND YOUR INFORMANT AFORESAID,
PROSECUTING AS AFORESAID, ON HIS OATH
AFORESAID, FURTHER INFORMATION MAKES
THAT LOGAN BROOKS DRINKARD, on or about
November 26, 2011, at and in Santa Rosa County,
Florida, did drive any motor vehicle, including any
motorcycle, in any race, speed competition or contest,
drag race or acceleration contest, test of physical
endurance, or exhibition of speed or acceleration or for
the purpose of making a speed record on any highway,
roadway, or parking lot, in violation of Section 316.191
(2)( a), Florida Statutes. (M-1)

A-20

STATE OF FLORIDA
COUNTY OF SANTA ROSA
Before me personally appeared the undersigned
designated Assistant State Attorney for the First
Judicial Circuit of Florida, being personally known to
me, and who first being duly sworn, says that the
allegations set forth in the foregoing information are
based on facts that have been sworn as true, and which
if true, would constitute the offense there charged, that
said Assistant State Attorney has received testimony
under oath from a material witness or witnesses for
the offense and that this prosecution is instituted in
good faith.
[signature of Jennie Kinsey]
ASSISTANT STATE ATTORNEY
JENNIE KINSEY
PO BOX 12726
A-21

PENSACOLA, FL 32591-2726
PHONE NUMBER: (850) 595-4611
FLORIDA BAR NO.: 0307350
Sworn to and subscribed before me this 12th day of
January, 2012.

[notary public stamp image providing:
Notary Public, State of Florida
BRANDA E. WRIGHT
MY COMMISSION # EE 155855
EXPIRES: April 27, 2016
Bonded Thru Notary Public Underwriters]

[signature of Branda E. Wright]
Notary Public

A-22

Excerpt from the transcript of the
March 20, 2012, pretrial hearing:

MS. KINSEY [the prosecutor]: And if it helps,
Mr. Wade, as an officer of the court, I can tell you that
the facts of the reckless driving for Count 1 and Count
2 are the same set of facts, which is what I think you
were trying to determine.
MR. WADE [defense counsel for the Petitioner]:
So it’s the State’s representation then that the factual
basis of both would be the same?
MS. KINSEY: Yes. It’s based on the same set of
facts –
MR. WADE: Okay.
MS. KINSEY: – which I think will clear a lot up
for you. And I have no problem with that, announcing
that. And ultimately, if he is convicted of both counts,
A-23

vehicular homicide and manslaughter, we would only
be able to proceed to sentencing on one of the two
cases.
THE COURT: Yeah. That’s correct. It’s one
death right?
MS. KINSEY: Yes, sir.
THE COURT: Right. He can’t be convicted of
both.
MS. KINSEY: Right.

A-24

IN THE CIRCUIT COURT IN AND FOR SANTA
ROSA COUNTY, FLORIDA
Case Number: 2011 CF 001806 A
Division: B
STATE OF FLORIDA
Plaintiff,
v.
LOGAN BROOKS DRINKARD,
Defendant.
_______________________________/
VERDICT
We the jury, find the defendant, LOGAN BROOKS
DRINKARD:
As to Count 1 (please check only one):
___

Guilty of Vehicular Homicide, as charged in the
Information.

T

Guilty of Reckless Driving, a lesser included
A-25

offense.
___

Not Guilty

As to Count 2 (please check only one):
T

Guilty of Manslaughter, as charged in the
Information.

___

Not Guilty

As to Count 3 (please check one):
___

Guilty of Racing on a Highway, as charged in
the Information.

T

Not Guilty
So say we all,
[signature of foreperson]
Foreperson Signature
[foreperson printed name]
Foreperson Print Name
Date: 6/07/13

A-26

